Report on African Development
Foundation’s Financial Statements, Internal
Controls, and Compliance for Fiscal Year
2000
Audit Report No. 0-ADF-01-008-F
March 21, 2001




                 Washington, DC

Page intentionally left blank
U.S. AGENCY FOR
INTERNATIONAL
 DEVELOPMENT


                                                                                          March 21, 2001

        MEMORANDUM

        TO:	              The Board of Directors and the President,

                          African Development Foundation


        FROM:	            AIG/A, Toby L. Jarman

        SUBJECT:	         Independent Auditor’s Report on the African Development Foundation's
                          Financial Statements, Internal Controls, and Compliance for Fiscal
                          Year 2000, Audit Report No. 0-ADF-01-008-F

        This report presents the results of the financial statement audit of the African
        Development Foundation (ADF) for the fiscal year ended September 30, 2000. The audit
        was contracted for by the USAID Office of Inspector General and was conducted by
        Leonard G. Birnbaum and Company, LLP (the audit firm).

        The purpose of the audit was to determine whether ADF’s financial statements present
        fairly, in all material respects, the net position and results of operations for the fiscal year
        ended September 30, 2000. The objectives of the audit were to:

        •	        Determine whether the principal financial statements present fairly in all material
                  respects, in conformity with generally accepted accounting principles, the
                  (1) assets; (2) liabilities and net position; (3) net costs; (4) change in net position;
                  (5) budgetary resources; and (6) reconciliation of net costs and budgetary
                  obligations of ADF.

        •	        Report on ADF's internal controls related to these financial statements and the
                  internal controls related to the performance measures contained in the "ADF's
                  Management Discussions and Analysis" section.

        •	        Report on ADF's compliance with laws and regulations that could have a direct
                  and material effect on the principal statements, and any other applicable laws and
                  regulations.
The audit firm reported that ADF’s Balance Sheet, Statement of Net Cost, and Statement 

of Changes in Net Position were presented fairly in all material respects. The audit firm 

also found that ADF had not posted all budgetary transactions into the general ledger for 

its fiscal year ended September 30, 2000. The auditors were unable to verify various 

amounts on ADF’s Statement of Budgetary Resources and Statement of Financing. 

Therefore, the scope of the audit firm’s work was not sufficient to enable it to express an 

opinion on ADF’s Statement of Budgetary Resources and Statement of Financing for the 

fiscal year ended September 30, 2000. The audit firm also reported that ADF had a 

material internal control weakness related to its financial reporting and three instances of 

non-compliance with selected provisions of applicable laws and regulations (See 

Appendix III).


The audit firm reported that ADF’s financial and accounting system, as of 

September 30, 2000, was inadequate. The principal areas of inadequacy reported were:


       •	 All elements of the financial statements were developed from sources other
          than the general ledger.

       •	 All budgetary transactions were not posted in the general ledger.

       •	 The United States General Ledger was not implemented at the transaction
          level.

The audit firm also identified and made recommendations to ADF, in a management
letter, to correct the material internal control weaknesses listed above, as well as the
following deficiencies: (See Attachment I to Appendix III):

       •	 ADF did not comply with all the requirements of OMB Circular A-123.

       •	 There was no single database for all ADF grant transactions, and foreign
          exchange rate fluctuation adjustments were only done at fiscal year year-end.

       •	 All fiscal year 2000 obligation transactions were not sent to the General
          Services Administration to be posted to the general ledger.

Based on our review of the Leonard G. Birnbaum and Company report and management
letter, we are making the following recommendations for inclusion in USAID’s
Consolidated Audit Tracking System:

       Recommendation No. 1: We recommend that the African Development
       Foundation: (1) develop all elements of the financial statements from the
       general ledger, (2) post all budgetary transactions in the general ledger, and
       (3) use the United States Standard General Ledger or a crosswalk to the
       standard general ledger (Refer to Attachment I, page 1 of 2, of the
       Leonard G. Birnbaum and Company letter dated December 8, 2000).



                                              2

       Recommendation No. 2: We recommend that the African Development
       Foundation:

               2.1.   Develop and maintain a single complete grant database.

               2.2.   Conduct the foreign exchange conversion at least quarterly so
                      that any funds becoming available could be used for program
                      activities.

       (Refer to Attachment I, page 1 of 2, of the Leonard G. Birnbaum and Company
       letter dated December 8, 2000).

       Recommendation No. 3: We recommend that the African Development
       Foundation post all obligation transactions in the general ledger when they
       occur (Refer to Attachment I, page 2 of 2, of the Leonard G. Birnbaum and
       Company letter dated December 8, 2000).

Based on the informatio n contained in your response to the report, management decisions
have been reached on all recommendations. A determination of final action will be made
when you provide documentation evidencing completion of all planned corrective
actions. (See Appendix II for ADF’s Management Comments).

I would like to express my sincerest appreciation for the courtesies extended by your staff
to the auditors.




                                             3

                                                                            Appendix I

                                                                            Page 1 of 1





                    OIG EVALUATION OF ADF’S

                    MANAGEMENT COMMENTS



In commenting on the audit report submitted by Leonard G. Birnbaum and Company, the
President of the African Development Foundation agreed with the audit findings and
recommendations to improve the African Development Foundation’s financial and
accounting system, strengthen internal controls, and to comply with applicable laws and
regulations.

With regard to recommendation Nos. 1, 2, and 3 (Refer to page 2 of this report),
management concurred with the audit findings and recommendations and stated that they
would develop and implement an action plan designed to correct all internal control
findings and eliminate instances of noncompliance with applicable laws and regulations.
ADF expects to fully implement the audit recommendations by the end of FY 2001.

Based on Management’s acceptance of the audit recommendations and action taken or
planned, we accept Management’s decision for the audit recommendations. We will
perform a follow- up review in the FY 2001 audit to ensure ADF’s full compliance and
implementation of its action plan.
                                                                                              Appendix II

                                                                                               Page 1 of 1




                   ADF’S MANAGEMENT COMMENTS



Alvin A. Brown
Director of Financial Audits
Office of Inspector General, US A.I.D.
Room No. 8.10 RRB
1300 Pennsylvania Ave., NW
Washington, D.C. 20523

         Re: Audit Report of the 2000 Financial Statements

Dear Mr. Brown:

          We have reviewed the audit report supplied by Leonard G. Birnbaum and Company including the
opinion of ADF’s fiscal year 2000 financial statements, internal control status, and compliance with
applicable laws and regulations. We are pleased to note that the financial statements were completed on
time and the Balance Sheet, Statement of Net Cost and Statement of Net Position all received unqualified
opinions. Thank you and your team as well as Birnbaum and Company for working closely with us during
the audit process.

          During the course of your audit, you identified and reported an instance of internal weakness in
the internal controls over financial reporting and instances of noncompliance with selected provisions of
applicable laws and regulations. Although we generally concur with your findings and recommendations,
we would respectfully suggest and addition to your report that recognizes the significant progress made at
ADF. We are referring to the progress that has been recognized by your office and by Birnbaum and
Company in our meetings. Last year, ADF developed and implemented an action plan designed to correct
all internal control findings and eliminate instances of noncompliance identified in the FY 1999 audit
report. By the end of FY 2000, ADF had already made substantial progress in reducing the number of
internal controls findings and instances of noncompliance. In the current fiscal year, given our efforts with
the action plan, ADF expects to be in full compliance with the audit of the FY 2001 financial statements.

          The African Development Foundation recognizes the importance of accountability and public
disclosure. We are committed to correcting the issues in your report and have dedicated the staff and
resources to ensure that our systems are in full compliance. We look forward to working with you and your
staff on the 2001 audit. Any questions may be addressed to Tom Coogan or Vicki Gentry at ADF.

Sincerely,




Nathaniel Fields
President
African Development Foundation
                                         Appendix III

                                          Page 1 of 24 




INDEPENDENT AUDITOR’S REPORT

   ON ADF’S FISCAL YEAR 2000 

    FINANCIAL STATEMENTS





   AFRICAN DEVELOPMENT FOUNDATION

     INDEPENDENT AUDITOR’S REPORT

           SEPTEMBER 30, 2000





      Leonard G. Birnbaum and Company

         Certified Public Accountants

            6285 Franconia Road

          Alexandria, Virginia 22310

                (703) 992-7622

